Office of Audits
Report No. AUD-11-013


Material Loss Review of FirsTier Bank,
Louisville, Colorado




                                 August 2011
                                        Executive Summary

                                        Material Loss Review of FirsTier Bank,
                                        Louisville, Colorado
                                                                                          Report No. AUD-11-013
                                                                                                     August 2011

Why We Did The Audit
On January 28, 2011, the Colorado Division of Banking (CDB) closed FirsTier Bank (FirsTier), Louisville,
Colorado, and the FDIC was appointed receiver. On February 24, 2011, the FDIC notified the Office of
Inspector General (OIG) that FirsTier’s total assets at closing were $808 million and the estimated loss to the
Deposit Insurance Fund (DIF) was $243 million. As of June 30, 2011, the estimated loss had decreased to
$225 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended by the
Dodd-Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a material loss review of
the failure of FirsTier.

The objectives of the review were to (1) determine the causes of FirsTier’s failure and the resulting loss to the
DIF and (2) evaluate the FDIC’s supervision of FirsTier, including the FDIC’s implementation of the Prompt
Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background
FirsTier was a state-chartered, nonmember bank headquartered in Louisville, Colorado, which is located
approximately 20 miles northwest of Denver. The institution opened in November 2003 after receiving
regulatory approval to purchase certain assets and liabilities of the Louisville, Colorado, branch of Enterprise
Bank, N.A., of Omaha, Nebraska. FirsTier was wholly owned by the FirsTier Bancorp, Inc., a one-bank
holding company. The bank, and its affiliate, FirsTier Bank of Kimball, Nebraska, formed a chain banking
organization that was under the control of one family. In addition to its main office in Louisville, the
institution operated eight branches in Colorado.

The organizers of FirsTier previously operated another bank under the same name in Northglenn, Colorado
(referred to herein as the former FirsTier Bank—FFTB). FFTB and an affiliate bank in Nebraska were sold to
Compass Bank, Birmingham, Alabama, in 2001. The last safety and soundness examination of FFTB,
conducted jointly by the FDIC and CDB, identified significant management weaknesses, including rapid asset
growth without adequate policies and procedures, a high concentration in real estate construction and land
development loans, and apparent regulatory violations. As part of the sales agreement with Compass Bank,
the organizers of FFTB signed a 2-year non-compete agreement. After the agreement expired, FirsTier was
formed.

FirsTier’s lending activities focused on commercial real estate (CRE), with a particular emphasis on residential
acquisition, development, and construction (ADC) projects. The institution used Internet certificates of
deposits (CD), and, beginning in 2008, brokered deposits and Federal Home Loan Bank advances, to support
loan growth and the bank’s operations.


Audit Results
Causes of Failure and Material Loss

FirsTier failed primarily because its Board of Directors (Board) and management did not effectively manage
the risks associated with the bank’s rapid growth and heavy concentration in ADC loans. Soon after it opened,
FirsTier departed from the business plan projections it submitted with its application for federal deposit
insurance by embarking on a rapid growth strategy centered in ADC lending. FirsTier’s management
continued to deviate from the bank’s business plans in subsequent years. By the close of 2006, more than half



                                    To view the full report, go to www.fdicig.gov
   Executive Summary
                                       Material Loss Review of FirsTier Bank,
                                       Louisville, Colorado
                                                                                          Report No. AUD-11-013
                                                                                                     August 2011

of FirsTier’s $236 million loan portfolio consisted of ADC loans, representing 463 percent of the bank’s total
capital. This exposure made the institution vulnerable to a sharp downturn in the Colorado real estate market.
Adding to this vulnerability was a general decline in the institution’s capital levels from 2004 to 2008, when
risk in the loan portfolio was increasing.

Lax oversight of the lending function also contributed to the asset quality problems that developed when
economic conditions in FirsTier’s lending markets deteriorated. Specifically, the bank exhibited weak ADC
loan underwriting, credit administration, and related monitoring practices. Further, FirsTier relied on non-core
funding sources, particularly Internet CDs and brokered deposits, to support loan growth and the bank’s
operations. These funding sources became restricted when FirsTier’s credit risk profile deteriorated, straining
the institution’s liquidity position. The CDB closed FirsTier on January 28, 2011 because the institution was
insolvent and was unable to raise sufficient capital to support its operations.

The FDIC’s Supervision of FirsTier

The FDIC, in coordination with the CDB, provided ongoing supervisory oversight of FirsTier through regular
onsite risk management examinations, visitations, and offsite monitoring activities. In addition, because
FirsTier was a newly chartered institution, it was subject to annual examinations during the first 3 years of
operation. Through its supervisory efforts, the FDIC identified key risks in FirsTier’s operations and brought
these risks to the attention of the institution’s Board and management. Such risks included the bank’s
significant concentration in ADC loans, weak loan underwriting and credit administration practices, reliance
on non-core funding sources, and the need for higher capital levels. Additionally, the FDIC and the CDB
made numerous recommendations for improvement and issued an enforcement action to address the
institution’s rapidly deteriorating financial condition and weak risk management practices.

On August 28, 2009, the FDIC issued Financial Institution Letter (FIL)-50-2009, entitled Enhanced
Supervisory Procedures for Newly Insured FDIC-Supervised Depository Institutions. The FIL, which is based
on the perspectives gained from the recent banking crisis, states that a number of newly insured institutions
pursued changes in their business plans during the first few years of operation that led to increased risk and
financial problems where accompanying controls and risk management practices were inadequate. Common
risks cited in the FIL include rapid growth, over-reliance on volatile funding, concentrations without
compensating management controls, and significant deviations from approved business plans. In the case of
FirsTier, the bank materially deviated from its approved business plan soon after it opened by embarking on a
rapid growth strategy centered in risky ADC lending and supported by potentially volatile funding. Examiners
promptly identified the deviation and requested that management revise the plan. However, the revised plan,
to which the FDIC did not object, largely reflected the new direction and actions already taken by the bank. In
light of the prior regulatory history of the bank’s owners and management team, such a deviation in business
strategy may have warranted greater supervisory concern and/or action. Under the FDIC’s current approach to
supervision, such business plan deviations would be subject to prior FDIC approval and a more in-depth
analysis to assess the potential risk to the institution and the DIF. In addition, when an institution implements
a material change in its business plan without providing prior notice or obtaining the FDIC’s approval, the
assessment of civil money penalties or other enforcement action would be considered.

Recognizing that FirsTier’s financial condition and markets were generally favorable during earlier
examinations, the FDIC could have placed greater emphasis on the institution’s growing risk profile during
and after the January 2007 examination. Such emphasis could have included a more aggressive pursuit of the
institution establishing and maintaining prudent limits on its growing ADC loan concentration and holding
higher levels of capital. In addition, the ratings assigned during the June 2008 CDB examination did not fully
reflect (on a forward-looking basis) the substantial risk associated with the institution’s ADC loan exposure in




                                   To view the full report, go to www.fdicig.gov
   Executive Summary
                                       Material Loss Review of FirsTier Bank,
                                       Louisville, Colorado
                                                                                         Report No. AUD-11-013
                                                                                                    August 2011

a weakening real estate market. Examiners became sharply critical of the bank’s risk management practices
during the July 2009 examination and issued a Cease and Desist Order in January 2010. However, by that
time, the institution’s lending markets had deteriorated significantly, making remedial efforts difficult. A more
proactive supervisory approach may have influenced the bank to curb its ADC lending, increase its capital
levels, and strengthen risk management before the bank’s lending markets deteriorated.

The FDIC has taken a number of actions to enhance its supervision program based on the lessons learned from
bank failures during the financial crisis. In recognition of the elevated risk that newly chartered institutions
pose to the DIF, the FDIC extended the de novo period from 3 to 7 years for purposes of onsite examinations,
capital maintenance, and other requirements, including that the institutions obtain prior approval from the
FDIC before making material changes in their business plans. The FDIC also has reiterated to its supervised
institutions and examiners broad supervisory expectations for managing risks associated with CRE and ADC
loan concentrations. In addition, the FDIC provided training to its examination workforce in 2009-2010,
wherein the importance of assessing an institution’s risk management practices on a forward-looking basis was
emphasized.

Based on the supervisory actions taken with respect to FirsTier, the FDIC properly implemented the applicable
PCA provisions of section 38 of the FDI Act.



Management Response

The Director, Division of Risk Management Supervision (RMS), provided a written response, dated
August 19, 2011, to a draft of this report. In the response, RMS reiterated the causes of failure and the
supervisory activities described in the report. The response noted that the FDIC issued a FIL in 2008, entitled
Managing Commercial Real Estate Concentrations in a Challenging Environment, that re-emphasized the
importance of robust credit risk-management practices for institutions with concentrated CRE exposures and
set forth broad supervisory expectations. Additionally, the response referenced a 2009 FIL, entitled The Use of
Volatile or Special Funding Sources by Financial Institutions That Are in a Weakened Condition, issued by
RMS to enhance FDIC supervision of institutions with concentrated CRE lending and reliance on volatile,
non-core funding sources. The response also mentioned the 2009 FIL, entitled Enhanced Supervisory
Procedures for Newly Insured FDIC-Supervised Depository Institutions, issued by RMS to expand the
traditional de novo period, which requires more stringent supervision, from 3 to 7 years, and tightened
oversight of de novo business plan changes during this 7-year period.




                                   To view the full report, go to www.fdicig.gov
                                 Contents
                                                                       Page
Background                                                              2

Causes of Failure and Material Loss                                     3
 Business Plan Deviations                                               4
 Aggressive Growth Concentrated in ADC Lending                          4
 Oversight of the Lending Function                                      7
 Reliance on Non-Core Funding Sources                                   9
 Capital Levels Relative to CRE and ADC Loan Growth                    10

The FDIC’s Supervision of FirsTier                                     11
 Supervisory History                                                   13
 The FDIC’s Consideration of Management When Granting Federal          15
   Deposit Insurance
 Supervisory Response to Key Risks                                     16
 Supervisory Lessons Learned                                           20
 Implementation of PCA                                                 21

OIG Evaluation of Corporation Comments                                 24

Appendices 
 1. Objectives, Scope, and Methodology                                 26
 2. Glossary of Terms                                                  29
 3. Acronyms                                                           33
 4. Corporation Comments                                               34

Tables
 1. Financial Information for FirsTier, 2004-2010                       3
 2. FirsTier’s ADC Concentrations Compared to Peer Group                6
 3. Onsite Examinations and Visitations of FirsTier, 2004-2011         13
 4. FirsTier’s Capital Levels Relative to PCA Thresholds, 2008-2010    22

Figures
  1. Composition and Growth of FirsTier’s Loan Portfolio, 2004-2010     5
  2. FirsTier’s Net Charge-offs on Loans and Leases During 2010         7
  3. FirsTier’s Net Non-Core Funding Dependency Ratio Compared to      10
     Peer
  4. Trend in FirsTier’s Tier 1 Capital Relative to CRE and ADC Loan   11
     Growth
Federal Deposit Insurance Corporation                                                           Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General




DATE:                                     August 24, 2011

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Mark F. Mulholland
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of FirsTier Bank, Louisville,
                                          Colorado (Report No. AUD-11-013)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (the Financial
Reform Act), the Office of Inspector General (OIG) conducted a material loss review
(MLR) of the failure of FirsTier Bank (FirsTier), Louisville, Colorado. The Colorado
Division of Banking (CDB) closed the institution on January 28, 2011, and the FDIC was
named receiver. On February 24, 2011, the FDIC notified the OIG that FirsTier’s total
assets at closing were $808 million, and the estimated loss to the Deposit Insurance Fund
(DIF) was $243 million. As of June 30, 2011, the estimated loss had decreased to
$225 million. The estimated loss for FirsTier exceeds the $200 million MLR threshold for
losses occurring from January 1, 2010 to December 31, 2011, as established by the
Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act, section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of FirsTier’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision
of FirsTier, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
MLRs, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more comprehensive reviews of specific aspects of
the FDIC’s supervision program and make recommendations as warranted.1

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms,
Appendix 3 contains a list of acronyms, and Appendix 4 contains the Corporation’s
comments on this report.

Background
FirsTier was a state-chartered, nonmember bank headquartered in Louisville, Colorado,
which is located approximately 20 miles northwest of Denver. The institution opened in
November 2003 after receiving regulatory approval to purchase certain assets and
liabilities of the Louisville, Colorado, branch of Enterprise Bank, N.A., of Omaha,
Nebraska. FirsTier was wholly owned by the FirsTier Bancorp, Inc., a one-bank holding
company. The bank, and its affiliate, FirsTier Bank of Kimball, Nebraska, formed a chain
banking organization (CBO) that was under the control of one family.2 In addition to its
main office in Louisville, the institution operated eight branches in Colorado.

The organizers of FirsTier previously operated another bank under the same name in
Northglenn, Colorado (referred to herein as the former FirsTier Bank—FFTB). FFTB and
an affiliate bank in Nebraska were sold to Compass Bank, Birmingham, Alabama, in
2001. The last safety and soundness examination of FFTB, conducted jointly by the FDIC
and CDB, identified significant management weaknesses, including rapid asset growth
without adequate policies and procedures, a high concentration in real estate construction
and land development loans, and apparent regulatory violations. As part of the sales
agreement with Compass Bank, the organizers of FFTB signed a 2-year non-compete
agreement. After the agreement expired, FirsTier was formed.

FirsTier’s lending activities focused on commercial real estate (CRE), with a particular
emphasis on residential acquisition, development, and construction (ADC) projects. The
institution used Internet certificates of deposit (CD), and, beginning in 2008, brokered
deposits and Federal Home Loan Bank (FHLB) advances, to support loan growth and the
bank’s operations. Table 1 provides selected financial information for the institution as of
December 31, 2010, and for the 6 preceding calendar years.




1
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of this report.
2
  A CBO is defined in the Glossary of Terms, Appendix 2, of this report.

                                                       2
Table 1: Financial Information for FirsTier, 2004-2010
  Financial Data
      ($000s)         Dec-04     Dec-05     Dec-06     Dec-07    Dec-08    Dec- 09    Dec-10
 Total Assets          55,234    140,295    284,271    483,252   782,686   868,621     764,090
 Total Deposits        48,382    121,939    259,713    438,820   606,104   758,110     718,797
 Total Loans           48,082    123,258    236,326    441,030   715,576   703,173     558,876
 Net Income (Loss)      (215)        719      2,965      4,891     2,122   (36,045)   (28,303)
 Brokered Deposits          -          -          -          -   112,333     77,150     14,467
 FHLB Advances              -          -          -          -    88,797     73,042     41,817
Source: Uniform Bank Performance Reports (UBPR) for FirsTier.



Causes of Failure and Material Loss

FirsTier failed primarily because its Board of Directors (Board) and management did not
effectively manage the risks associated with the bank’s rapid growth and heavy
concentration in ADC loans. Soon after it opened, FirsTier departed from the business
plan projections it submitted with its application for federal deposit insurance by
embarking on a rapid growth strategy centered in ADC lending. FirsTier’s management
continued to deviate from the bank’s business plans in subsequent years. By the close of
2006, more than half of FirsTier’s $236 million loan portfolio consisted of ADC loans,
representing 463 percent of the bank’s total capital. This exposure made the institution
vulnerable to a sharp downturn in the Colorado real estate market. Adding to this
vulnerability was a general decline in the institution’s capital levels from 2004 to 2008,
when risk in the loan portfolio was increasing.

Lax oversight of the lending function also contributed to the asset quality problems that
developed when economic conditions in FirsTier’s lending markets deteriorated.
Specifically, the bank exhibited weak ADC loan underwriting, credit administration, and
related monitoring practices. Further, FirsTier relied on non-core funding sources,
particularly Internet CDs and brokered deposits, to support loan growth and the bank’s
operations. These funding sources became restricted when FirsTier’s credit risk profile
deteriorated, straining the institution’s liquidity position.

Conditions in FirsTier’s primary lending areas began to show signs of decline in 2007. By
July 2009, the quality of the bank’s loan portfolio had deteriorated significantly, with the
majority of problems centered in ADC loans. FirsTier’s 2009 examination report noted
that, despite signs of economic weakness, the bank continued to originate ADC loans
during 2008 and 2009. Further deterioration in the loan portfolio occurred in 2010. The
associated provisions for loan losses depleted FirsTier’s earnings, eroded its capital, and
strained its liquidity. The CDB closed FirsTier on January 28, 2011 because the
institution was insolvent and was unable to raise sufficient capital to support its
operations.




                                                  3
Business Plan Deviations

The FDIC requires applicants for federal deposit insurance to submit business plans that,
among other things, define adequate policies, procedures, management expertise, and the
ability to attract and maintain adequate capital. Institutions are required to operate within
the parameters of their business plans and to provide written notice to the FDIC of
proposed changes during the de novo period.3 Business plans represent an important
management tool for setting goals and measuring progress. However, as described below,
FirsTier did not make effective use of its business plans to manage and guide the
institution’s business practices. Instead, the bank continually deviated from its business
plans and then revised them to reflect its changing business practices.

Soon after it opened for business, FirsTier deviated from the business plan projections it
submitted with its application for federal deposit insurance by embarking on a rapid
growth strategy centered in ADC lending. During a May 2004 visitation, examiners noted
that FirsTier was “exceeding projections in virtually every area” of its business plan and
that the bank’s plan appeared obsolete. Because the bank’s growth strategy represented a
material departure from the original proposal on which its deposit insurance was granted,
the FDIC requested a revised business plan. The bank submitted a revised business plan
in July 2004 that projected total assets of $263 million by year-end 2006 (versus
$62 million as described in the original plan) and $1 billion within 10 years. The revised
plan also permitted branch expansion and discussed the possibility of using Internet CDs,
which were not contemplated in the original business plan, and a greater concentration in
ADC loans. In addition, the plan adjusted the bank’s assumptions in such areas as deposit
volume, capital, and earnings.

By January 2007, FirsTier’s business plan was again outdated. Specifically, the bank’s
branch expansion had surpassed the projections in the plan, competitive conditions had
changed, and management was increasing the use of Internet deposits. Examiners
recommended during the January 2007 examination that the bank revise it business plan.
Although FirsTier subsequently modified its business plan, it had become outdated by the
July 2009 examination given the ongoing downturn in the bank’s lending markets and the
institution’s deteriorating financial condition.

Aggressive Growth Concentrated in ADC Lending

During the 4-year period ended December 31, 2008, FirsTier grew its loan portfolio from
$48 million to $716 million (or nearly 1,400 percent). The majority of this growth was in
ADC loans, which grew from $19 million to $399 million (an increase of 2,000 percent)
during this same period. Such growth outpaced FirsTier’s peer group4 by a wide margin.
FirsTier’s ADC lending included speculative loans for construction and land development


3
  In August 2009, the FDIC changed the de novo period from 3 years to 7 years.
4
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. FirsTier’s peer group included all insured
institutions with assets between $300 million and $1 billion.


                                                      4
projects in the Denver metropolitan area.5 Figure 1 illustrates the general composition and
growth of FirsTier’s loan portfolio in the years preceding the institution’s failure.

Figure 1: Composition and Growth of FirsTier’s Loan Portfolio, 2004-2010

                                         $700
                                                               All Other Loans
                                                               Other CRE                      $169     $151
     Gross Loans and Leases (Millions)




                                         $600                  ADC


                                         $500                                                                    $116
                                                                                              $148     $178

                                         $400                                          $111
                                                                                                                 $173

                                         $300                                          $102

                                                                        $46
                                         $200                                                 $399     $374
                                                                        $71
                                                                                                                 $269
                                                             $22                       $228
                                         $100
                                                             $49
                                                  $11                  $119
                                                  $18        $52
                                                  $19
                                           $0
                                                 2004       2005       2006            2007   2008    2009       2010
                                                                                 Year Ended

Source: Call Reports for FirsTier.

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued joint guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). Although the Joint Guidance does not establish specific CRE lending
limits, it does define criteria that the agencies use to identify institutions potentially
exposed to significant CRE concentration risk. According to the Joint Guidance, an
institution that has experienced rapid growth in CRE lending, has notable exposure to a
specific type of CRE, or is approaching or exceeds the following supervisory criteria may
be identified for further supervisory analysis of the level and nature of its CRE
concentration risk:

                                         Total CRE loans representing 300 percent or more of total capital where the
                                          outstanding balance of the institution’s CRE loan portfolio has increased by
                                          50 percent or more during the prior 36 months; or

                                         Total loans for construction, land development, and other land (referred to in this
                                          report as ADC) representing 100 percent or more of total capital.

As shown in Table 2, FirsTier’s ADC loan concentrations as a percentage of total capital
significantly exceeded the levels defined in the Joint Guidance as possibly warranting


5
    Speculative loans involve financing projects for which a buyer has not yet been identified.


                                                                                   5
further supervisory analysis. Further, FirsTier’s ADC loans as a percentage of total capital
and total gross loans substantially exceeded the bank’s peer group averages.

Table 2: FirsTier’s ADC Concentrations Compared to Peer Group
                             ADC Loans as a                                   ADC Loans as a
    Period                Percent of Total Capital                         Percent of Total Loans
    Ended                             Peer         FirsTier                           Peer         FirsTier
                    FirsTier                                         FirsTier
                                     Group        Percentile                         Group        Percentile
 Dec 2003              24.82         20.83            71                8.80         12.05            49
 Dec 2004             260.99         80.30            94               39.62         16.63            88
 Dec 2005             272.64         121.31           88               42.53         19.94            92
 Dec 2006             462.65         140.39           95               50.42         22.52            93
 Dec 2007             491.21         169.27           96               51.72         24.05            92
 Dec 2008             524.86         111.47           98               55.72         14.47            99
 Dec 2009*          1,067.58          84.94           99               53.20         11.33            99
Source: UBPR data for FirsTier.
*The increase in ADC loans as a percentage of total capital was largely attributable to a decrease in capital
rather than new ADC lending.

ADC lending generally involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. Associated risks include adverse changes in
market conditions between the time an ADC loan is originated and the time construction is
completed, as well as the inherent difficulty of accurately estimating the cost of
construction and the value of completed properties in future periods. Due to these and
other risk factors, ADC loans generally require greater effort to effectively evaluate and
monitor than other types of loans.

Although FirsTier had implemented certain controls for managing its CRE and ADC loan
concentrations, its concentration risk management practices were not adequate. Among
other things, the institution’s ADC loan concentration limits were particularly high.
According to the July 2009 examination report, FirsTier’s loan policy allowed up to
900 percent of Tier 1 Capital for ADC loans, up to 500 percent of Tier 1 Capital for land
development loans, and up to 400 percent of Tier 1 Capital for speculative construction
loans. Such limits exposed the institution to significant risk of potential adverse market
conditions. FirsTier also had a geographical concentration of ADC loans in the markets
north of the Denver metropolitan area, further increasing the bank’s concentration risk.
Additionally, the institution had not performed appropriate stress testing in its CRE and
ADC loan portfolios to assess the impact that various economic scenarios might have on
the institution’s asset quality, capital, earnings, and liquidity, as described in the Joint
Guidance.

ADC Loan Losses

At the time of the July 2009 examination, FirsTier’s adversely classified assets were
$115 million (or 171 percent of Tier 1 Capital plus the Allowance for Loan and Lease
Losses (ALLL)), posing significant risk to the institution. Approximately $96 million of
the classifications consisted of loans, the majority of which were ADC loans. By the
September 2010 examination, adversely classified assets had increased to $284 million (or


                                                       6
552 percent of Tier 1 Capital plus the ALLL). The majority of these classifications
consisted of ADC loans. In its Call Report for the year-ended December 31, 2010,
FirsTier reported that nearly 25 percent of its total loan portfolio was in a non-accrual
status. Further, about 39 percent of the bank’s ADC loan portfolio was not performing at
that time. As reflected in Figure 2, the majority of loan charge-offs in 2010 pertained to
ADC loans.

Figure 2: FirsTier’s Net Charge-offs on Loans and Leases During 2010

                                                     ($000s)


                  $6,199




  $3,394
                                                                                                $18,934




         ADC Loans*               Other CRE Loans                   All Other Loans and Leases

Source: Call Reports for FirsTier.
*ADC loans include over $7 million in write-offs related to 1-4 family residential ADC loans.

Oversight of the Lending Function

Ineffective Board and management oversight of the lending function contributed to the
asset quality problems that developed when FirsTier’s lending markets deteriorated.
Examination reports issued from 2004 to 2007 generally concluded that FirsTier’s loan
underwriting and credit risk management practices were adequate, although the reports did
describe various risk factors and contained some recommendations for control
improvements. One of the more notable risks was described in the January 2007
examination report. Specifically, the report stated that while the loan policy provided a
range of 50–100 percent of the bank’s capital for land acquisition and development loans,
the actual funded amount for this loan type was 303 percent. In addition, the loan policy
defined a range for ADC loans of 200-300 percent of capital. However, commitments for
such loans at that time were 688 percent, with the amount funded at nearly 500 percent.
The report recommended that management revisit the loan policy in view of the bank’s
practices and consider whether the policy or practices should be amended.

Examiners became progressively more critical of FirsTier’s underwriting and credit
administration practices during subsequent examinations and visitations. During the June
2008 examination, examiners recommended that management:




                                                       7
        Implement a monitoring process for loans with interest reserves6 that were running
         out or totally exhausted, particularly for borrowers whose construction or land
         development projects had slowed or experienced stale sales.

        Strengthen the loan policy to clarify when real estate owned needed to be
         reappraised and the frequency with which financial statements and tax returns were
         due after loans were originated.

        Improve appraisal practices by having appraisal reviews completed by a qualified
         reviewer other than the lender handling the transaction.

The July 2009 examination report was sharply critical of FirsTier’s loan underwriting,
credit administration, and related risk management practices. According to the report, the
bank had originated increasingly large ADC loans during the prior 3 years to borrowers
who were highly leveraged with considerable obligations at other institutions. According
to the report, the bank’s underwriting was characterized by insufficient analysis of
repayment sources, weak secondary repayment capacity, and limited borrower equity. In
addition, the bank’s practice of capitalizing interest prevented ADC loans from being
recognized as past-due or non-accrual, despite a high volume of development projects
experiencing almost no sales during the prior 18 months. Further, loans with interest
reserves were not being tracked or reviewed by the Board. The report also noted that,
among other things:

        Procedures for identifying problem assets and administering the bank’s internal
         watch list were inadequate.

        Appraisal review practices were insufficient. Specifically, examiners identified
         many appraisals where the vacant land use absorption period appeared aggressive
         given the troubled real estate market and lack of sales. Further, many appraisals
         used comparable transactions that occurred 12-18 months prior, which exhibited
         much stronger economic conditions. Internal reviews did not raise concerns
         regarding these assumptions.

        Loans for real estate development were made to borrowers whose debt service
         capacity was limited to the sale of the collateral, without a reliable secondary
         repayment source, and bank management did not encourage or require borrowers
         to maintain minimum liquidity levels.




6
  An interest reserve account allows a lender to periodically advance loan funds to pay interest charges on
the outstanding balance of the loan. The interest is capitalized and added to the loan balance.


                                                      8
        The ALLL7 was underfunded by at least $8.5 million, primarily as a result of
         inadequate risk allocations for the CRE loan concentration, loans graded “Watch,”
         the weak economy, and other environmental factors.

        There were apparent violations of laws and/or regulations, including some related
         to appraisal requirements.

Although the April 2010 visitation noted some improvement in FirsTier’s credit
administration practices, weaknesses persisted in a number of areas, including appraisal
reviews, internal loan grading, and the ALLL amount and methodology. In addition, the
bank’s financial condition was deteriorating rapidly. By the time the September 2010
examination report was completed, FirsTier had a negative capital position.

Reliance on Non-Core Funding Sources

FirsTier relied on non-core funding sources, such as Internet CDs, brokered deposits, and
FHLB advances, to fund its operations (including its lending activities). When properly
managed, such funding sources offer important benefits, such as ready access to funding
in national markets when core deposit growth in local markets lags planned asset growth.
However, non-core funding sources also present potential risks, such as higher costs and
increased volatility. According to the FDIC Risk Management Manual of Examination
Policies (Examination Manual), placing heavy reliance on potentially volatile funding
sources to support asset growth is risky because access to these funds may become limited
during distressed financial or economic conditions. Under such circumstances,
institutions could be required to sell assets at a loss in order to fund deposit withdrawals
and other liquidity needs.

During the November 2004 examination, FirsTier’s President advised examiners that
management had decided to use Internet deposits, as needed, to help supplement liquidity,
offset any runoff of deposits, and fund a substantial volume of pending loans. During the
December 2005 examination, examiners noted that the bank’s continued rapid growth was
straining the institution’s liquidity and that time deposits acquired through the Internet had
grown to $18 million. By June 2008, Internet deposits totaled $100 million. In addition,
the bank had begun acquiring brokered deposits, which totaled $23 million as of May 12,
2008, and FHLB advances, which totaled $20 million as of March 31, 2008, to support
loan growth. The June 2008 examination report noted that FirsTier’s liquidity position
was less than satisfactory, with nontraditional funding sources in the aggregate
representing a significant portion of the bank’s asset funding, and continued aggressive
growth with limited on-balance sheet liquidity presenting increased risk.




7
  According to the Interagency Policy Statement on the Allowance for Loan and Lease Losses (Policy
Statement on ALLL), the ALLL represents one of the most significant estimates in an institution’s financial
statements and regulatory reports. As a result, each institution is responsible for developing, maintaining,
and documenting a comprehensive, systematic, and consistently applied process for determining the ALLL.


                                                      9
As reflected in Figure 3, FirsTier’s net non-core funding dependency ratio8 rose
significantly when the bank began to acquire brokered deposits and FHLB advances in
2008. Notably, the bank’s net non-core funding dependency ratio was much higher than
its peer group, starting in 2008, with the institution ranking in the 90th to 99th percentile of
its peers.

Figure 3: FirsTier’s Net Non-Core Funding Dependency Ratio Compared to Peer

                                            70.00
    Net Non-Core Funding Dependency Ratio




                                            60.00
                                                             FirsTier     Peer

                                            50.00


                                            40.00
                     (%)




                                            30.00


                                            20.00


                                            10.00


                                             0.00
                                                    Dec-04   Dec-05     Dec-06    Dec-07    Dec-08   Dec-09   Dec-10
                                                                                 Year End

Source: UBPRs for FirsTier.

By the July 2009 examination, brokered deposits totaled $174 million, Internet deposits
totaled $67 million, and FHLB advances totaled $89 million. According to the
examination report, funding of the bank’s rapid asset growth necessitated extensive use of
non-core funding sources. In addition, the bank’s liquidity was limited, its external lines
of credit were becoming restricted, and its reliance on non-core funding threatened the
viability of the institution. Examiners determined that FirsTier’s liquidity position had
improved by the September 2010 examination, but that liquidity risk remained high given
the bank’s poor financial condition and heavy reliance on non-core funding sources.
According to the September 2010 examination report, the bank was working to replace its
brokered deposits (which had become restricted due to its capital position and a January
2010 Cease and Desist Order (C&D)) with Internet deposits.9 At that time, brokered
deposits had declined to $15 million (or 2 percent of total deposits), and Internet deposits
had increased to $235.2 million. The bank’s liquidity position remained strained until its
failure.

Capital Levels Relative to CRE and ADC Loan Growth

While risk in the loan portfolio increased from 2004 to 2008 due to FirsTier’s aggressive
ADC loan growth, capital levels remained relatively constant or declined. This trend

8
  A bank’s net non-core funding dependency ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year).
9
  Management never applied for a brokered deposit waiver.


                                                                                  10
limited the bank’s ability to absorb losses due to unforeseen circumstances and
contributed to the losses incurred by the DIF when the institution failed. Figure 4
illustrates the trend in FirsTier’s Tier 1 Capital ratio relative to ADC and other CRE loans.

Figure 4: Trend in FirsTier’s Tier 1 Capital Relative to CRE and ADC Loan Growth

                         $500,000
                                                                                                       15.00
   Loan Balance (000s)




                         $400,000
                                                                                                       12.00




                                                                                                               Percentage
                         $300,000                                                                      9.00

                         $200,000                                                                      6.00

                         $100,000                                                                      3.00

                              $0                                                                       0.00
                                04




                                      05




                                            06




                                                       07




                                                                   08




                                                                                09




                                                                                                  10
                               c-




                                      c-




                                            c-




                                                      c-




                                                                   c-




                                                                               c-




                                                                                             c-
                             De




                                     De




                                           De




                                                     De




                                                                  De




                                                                             De




                                                                                           De
                                                       Year End

                                     ADC         Other CRE              Tier 1 Leverage Capital

Source: UBPRs for FirsTier.

The Examination Manual states that institutions should maintain capital commensurate
with the level and nature of risks to which the institutions are exposed. In addition, the
amount of capital necessary for safety and soundness purposes may differ significantly
from the amount needed to maintain a Well Capitalized or Adequately Capitalized position
for purposes of PCA. Maintaining higher capital levels may have restrained FirsTier’s
loan growth and/or limited, to some extent, the losses incurred by the DIF.

The FDIC’s Supervision of FirsTier

The FDIC, in coordination with the CDB, provided ongoing supervisory oversight of
FirsTier through regular onsite risk management examinations, visitations, and offsite
monitoring activities. In addition, because FirsTier was a newly chartered institution, it
was subject to annual examinations during the first 3 years of operation. Through its
supervisory efforts, the FDIC identified key risks in FirsTier’s operations and brought
these risks to the attention of the institution’s Board and management. Such risks included
the bank’s significant concentration in ADC loans, weak loan underwriting and credit
administration practices, reliance on non-core funding sources, and the need for higher
capital levels. The FDIC and the CDB also made numerous recommendations for
improvement and issued an enforcement action to address the institution’s rapidly
deteriorating financial condition and weak risk management practices.

On August 28, 2009, the FDIC issued Financial Institution Letter (FIL)-50-2009, entitled
Enhanced Supervisory Procedures for Newly Insured FDIC-Supervised Depository
Institutions. The FIL, which is based on the perspectives gained from the recent banking


                                                       11
crisis, states that a number of newly insured institutions pursued changes in their business
plans during the first few years of operation that led to increased risk and financial
problems where accompanying controls and risk management practices were inadequate.
Common risks cited in the FIL include rapid growth, over-reliance on volatile funding,
concentrations without compensating management controls, and significant deviations
from approved business plans.

In the case of FirsTier, the bank materially deviated from its approved business plan soon
after it opened by embarking on a rapid growth strategy centered in risky ADC lending
and supported by potentially volatile funding. Examiners promptly identified the
deviation and requested that management revise the plan. However, the revised plan, to
which the FDIC did not object, largely reflected the new direction and actions already
taken by the bank. In light of the prior regulatory history of the bank’s owners and
management team, such a deviation in business strategy may have warranted greater
supervisory concern and/or action. Under the FDIC’s current approach to supervision,
such business plan deviations would be subject to prior FDIC approval and a more in-
depth analysis to assess the potential risk to the institution and the DIF. In addition, when
an institution implements a material change in its business plan without providing prior
notice or obtaining the FDIC’s approval, the assessment of civil money penalties or other
enforcement action would be considered.

Recognizing that FirsTier’s financial condition and markets were generally favorable
during earlier examinations, the FDIC could have placed greater emphasis on the
institution’s growing risk profile during and after the January 2007 examination. Such
emphasis could have included a more aggressive pursuit of the institution establishing and
maintaining prudent limits on its growing ADC loan concentration and holding higher
levels of capital. In addition, the ratings assigned during the June 2008 CDB examination
did not fully reflect (on a forward-looking basis) the substantial risk associated with the
institution’s ADC loan exposure in a weakening real estate market. Examiners became
sharply critical of the bank’s risk management practices during the July 2009 examination
and issued a C&D in January 2010. However, by that time, the institution’s lending
markets had deteriorated significantly, making remedial efforts difficult. A more
proactive supervisory approach may have influenced the bank to curb its ADC lending,
increase its capital levels, and strengthen risk management before the bank’s lending
markets deteriorated.

The FDIC has taken a number of actions to enhance its supervision program based on the
lessons learned from bank failures during the financial crisis. In recognition of the
elevated risk that newly chartered institutions pose to the DIF, the FDIC extended the
de novo period from 3 to 7 years for purposes of onsite examinations, capital maintenance,
and other requirements, including that the institutions obtain prior approval from the FDIC
before making material changes in their business plans. The FDIC has also reiterated
broad supervisory expectations for managing risks associated with CRE and ADC loan
concentrations to its supervised institutions and examiners. In addition, the FDIC
provided training to its examination workforce in 2009-2010, wherein the importance of




                                             12
assessing an institution’s risk management practices on a forward-looking basis was
emphasized.

Supervisory History

From 2004 to 2011, the FDIC and/or the CDB conducted six onsite examinations and
three visitations of FirsTier. The frequency of this examination activity was consistent
with relevant statutory requirements.10 Table 3 summarizes key supervisory information
pertaining to FirsTier in the years preceding its failure.

Table 3: Onsite Examinations and Visitations of FirsTier, 2004-2011
                                                                              Violations           Informal or
 Examination                                              Supervisory
                  Examination                                                   and/or               Formal
 or Visitation                      Regulator(s)            Ratings
                  or Visitation                                             Contraventions            Action
  Start Date                                               (UFIRS*)
                                                                                                    Taken***
      5/17/04       Visitation          FDIC           No ratings given.           None               None
     11/29/04      Examination        FDIC/CDB            222322/2                  1                 None
     12/12/05      Examination        FDIC/CDB            212322/2                  4                 None
      1/16/07      Examination        FDIC/CDB            222222/2                  4                 None
      6/02/08      Examination          CDB               222332/2                  6                 None
      7/20/09      Examination          FDIC              555555/5                  4                 C&D
                                                                                                    effective
                                                                                                   January 22,
                                                                                                      2010.
     4/12/10         Visitation          FDIC          No ratings given.    Not Applicable**       C&D still in
                                                                                                     effect.
      9/2/10       Examination        FDIC/CDB             555555/5                 12             C&D still in
                                                                                                     effect.
      1/3/11         Visitation       FDIC/CDB         No ratings given.    Not Applicable**       C&D still in
                                                                                                     effect.
Source: OIG analysis of examination reports and information in the Virtual Supervisory Information On the
Net (ViSION) system for FirsTier.
* See the report Glossary for a definition of UFIRS, which establishes the CAMELS rating system.
**These visitations did not assess the bank’s compliance with laws and regulations.
*** Informal enforcement actions often take the form of Bank Board Resolutions (BBR) or Memoranda of
Understanding. Formal enforcement actions often take the form of C&Ds or Supervisory Directives.

Offsite Monitoring

The FDIC’s offsite monitoring procedures generally consisted of contacting FirsTier’s
management from time to time to discuss current and emerging business issues and using




10
  Section 10(d) of the FDI Act states that the appropriate federal banking agency shall, not less than once
during each 12-month period, conduct a full-scope, onsite examination of each insured depository
institution. According to the Act, the annual examination interval may be increased to 18 months for
small institutions that meet certain conditions.


                                                     13
automated tools11 to help identify potential supervisory concerns. FirsTier initially
appeared on the FDIC’s Offsite Review List (ORL)12 in March 2008 due to the bank’s
heavy concentration in construction and non-residential real estate loans. The FDIC did
not take immediate action at that time due to the upcoming June 2008 examination. The
examination found that the overall condition of the bank was satisfactory but that risk
management practices needed improvement in a number of areas. FirsTier remained on
the ORL until October 2009. At that time, the examiners conducting the July 2009
examination had determined that the bank’s overall financial condition was critically
deficient.

In January 2010, the FDIC conducted an off-site CBO review of FirsTier and its affiliate,
FirsTier Bank, Kimball, Nebraska. The review found that FirsTier’s overall capital
position was deficient and that the ability of the bank’s parent holding company to service
its debt was questionable.

Enforcement Action

Based on the results of the July 2009 examination, the FDIC issued a C&D effective
January 22, 2010. The C&D remained in effect until the bank was closed in January 2011.
Among other things, the order required FirsTier to:

        Increase the Board’s participation in the affairs of the bank.

        Submit a written capital plan to increase Tier 1 Capital.

        Submit a written plan to reduce the aggregate total of ADC loan concentrations.

        Make a provision to the ALLL in the amount of at least $8.5 million and amend
         prior Call Reports filed on or after June 30, 2009, if necessary, to accurately reflect
         the financial condition of the bank as of the date of each report.

        Develop and submit (1) a written plan to improve the bank’s liquidity position and
         (2) a contingency liquidity plan.

        Review the bank’s loan policy and procedures for effectiveness and, based upon
         the review, make all necessary revisions to the loan policy in order to strengthen
         the bank’s lending procedures and abate additional loan deterioration.

        Eliminate and/or correct all violations of laws and regulations and implement
         procedures to ensure future compliance.

11
   The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions experiencing rapid growth and/or a
funding structure highly dependent on non-core funding sources.
12
   The ORL identifies institutions warranting heightened supervisory oversight.


                                                       14
The FDIC’s Consideration of Management When Granting Federal Deposit
Insurance

As mentioned in the Background section of this report, the organizers of FirsTier had
previously operated another bank under the same name in Northglenn, Colorado (i.e.,
FFTB) that was sold to Compass Bank in 2001.

The last safety and soundness examination conducted of FFTB found the bank to be in
less-than-satisfactory condition and resulted in an informal enforcement action.13 We
reviewed the FDIC’s assessment of FirsTier’s application for federal deposit insurance to
determine whether consideration was given to the applicants’ prior regulatory history.

The FDIC Board has statutory responsibility for acting on applications for federal deposit
insurance by all depository institutions. Within the FDIC, this responsibility has been
delegated to the Division of Risk Management Supervision (RMS). RMS evaluates
insurance applications in relation to the following seven factors defined in section 6 of the
FDI Act: (1) the financial history and condition of the institution, (2) the adequacy of the
capital structure, (3) future earnings prospects, (4) the general character and fitness of
management, (5) the risk presented by the institution to the DIF, (6) the convenience and
needs of the community to be served by the institution, and (7) whether the institution’s
corporate powers are consistent with the purposes of the FDI Act. RMS conducts
investigations to assess these statutory factors. In general, applicants receive deposit
insurance if all seven statutory factors (plus the considerations required by the National
Historic Preservation Act and the National Environmental Policy Act of 1969) are
resolved favorably and compliance is noted with the FDIC Statement of Policy on
Applications for Deposit Insurance.

The statutory factor pertaining to the general character and fitness of management includes
consideration of past regulatory experience. We found that the FDIC documented its
consideration of this statutory factor in a Report of Investigation, correspondence, and
other papers (collectively referred to herein as records). These records contain extensive
information and analyses, including the results of interviews with FirsTier’s owners and
management team members, regarding the regulatory problems that existed at FFBT. The
records reflect concerns about the applicants’ responsibility for risk management
weaknesses and compliance problems that developed at FFBT. However, examiners
noted that such concerns must be weighed against other relevant factors, including the
satisfactory manner in which the applicants managed FFBT between 1992 and 2000.
Further, the records indicate that the FDIC weighed assurances provided by the applicants
that growth at FirsTier would be slower than at FFBT and that previous mistakes
pertaining to compliance and safety and soundness would not recur. The records show
that the FDIC found the general character and fitness of FirsTier’s management to be
favorable.
13
  The examination for FFTB, which began on March 20, 2000, resulted in a supervisory composite rating of
“3.” Weaknesses identified during the examination included seven apparent violations of regulations, an
increasing level of problem assets, high concentrations in CRE and ADC loans, an unsatisfactory liquidity
position and funds management strategy, aggressive asset growth, and deficient policies and procedures.
The bank adopted a BBR to address the deficiencies identified during the examination.


                                                   15
Supervisory Response to Key Risks

In the years preceding FirsTier’s failure, the FDIC and the CDB identified risks in the
bank’s operations and brought these risks to the attention of the institution’s Board and
management through examination and visitation reports, correspondence, and
recommendations. In addition, the FDIC issued a C&D in early 2010. A summary of
supervisory activities related to the bank’s key risks follows.

2004 Supervisory Activities

The FDIC conducted a 6-month visitation of FirsTier in May 2004 to ascertain the de
novo bank’s progress and adherence to the FDIC’s Order granting deposit insurance.
Examiners determined that FirsTier was exceeding the projections in the bank’s approved
business plan in “virtually every area,” including growth and operating losses. Because
the business plan appeared to be obsolete and current growth plans represented a material
change from the original proposal on which deposit insurance had been granted, the FDIC
requested an updated business plan. Examiners concluded that while the bank’s rapid
growth was a concern, the experience of the management team and the substantial
resources of ownership mitigated some of that concern. Examiners further noted that the
revival in the overall economy and the strength of the local economy was aiding the
bank’s business. FirsTier provided the FDIC with a revised business plan on July 27,
2004, and the bank was subsequently notified that the FDIC had no objection to the plan.

Examiners determined during the November 2004 examination that the bank’s overall
condition was sound, despite more rapid growth than originally planned. Notably, the
bank had no classified assets. The examination report noted that the bank’s loan portfolio
was concentrated in ADC loans and that capital, although satisfactory, remained well
below the peer level for typical new banks in Colorado, especially in view of the rapid
growth strategy being pursued. Further, the examination report noted that management
had begun to use potentially volatile Internet deposits to support loan growth and
operations. The bank’s earnings were also found to be less than satisfactory.

2005 Supervisory Activities

The December 2005 joint examination report stated that FirsTier’s overall financial
condition was satisfactory. At that time, the bank had no classified assets, and loan
administration practices were adequate. However, FirsTier continued to experience strong
asset growth, which was reducing the bank’s risk-based capital ratios. Although earnings
improved following the prior examination, earnings continued to be less than satisfactory
and insufficient to augment capital or fully support the bank’s rapid growth. Our analysis
of the September 2005 financial data that was used to prepare for the examination found
that FirsTier’s capital ratios were lower than that of its peer group. The report indicated
that the bank was dependent on capital injections to maintain a Well Capitalized position.

Additionally, our analysis of the September 2005 financial data, used to prepare for the
examination, found that FirsTier’s ADC concentration was 358 percent of Tier 1 Capital,
which was more than three times the level of its peer group. However, this ADC loan


                                             16
concentration dipped in the following months, and the examination report noted that
FirsTier had an ADC loan concentration of 263 percent of Tier 1 Capital. According to
the report, the bank’s ADC lending had significantly higher risks than other types of loans,
and this continued to be an area of potential concern. Further, the report noted that the
bank’s rapid growth was straining the institution’s liquidity and that oversight in this area
needed improvement.

2007 Supervisory Activities

The January 2007 joint examination report, which covered FirsTier’s financial condition
as of September 30, 2006, stated that the bank continued to operate in a satisfactory
manner. Examiners downgraded the Asset Quality component from a “1” to a “2” based
on some deterioration in the loan portfolio.14 The report stated that although the relative
volume of these problem loans was not significant, their development in only the third
year of the bank’s existence warranted some concern.

Examiners noted that FirsTier continued to pursue a strategy of rapid expansion that
outpaced its peers by a wide margin. Specifically, loans grew from approximately
$103 million to approximately $216 million (a 110-percent increase), with ADC loans
increasing from $45 million to over $108 million (a 140-percent increase). Much of this
growth was supported by potentially volatile Internet CDs. In addition, the bank had
opened five branches, with an additional opening planned for 2007. According to the
report, FirsTier’s business plan had not been updated since 2004, and it was outdated in
many respects. Among other things, branch expansion had surpassed the number
projected in the plan, competitive conditions had continued to change, and management
had made increased use of Internet deposits. Examiners encouraged the bank to update its
business plan.

The bank’s capital ratios were experiencing wide fluctuations due to the bank’s aggressive
growth and continued capital injections.15 At the time of the examination, the bank’s
Tier 1 Leverage Capital ratio was 9.23 percent, down from 10.63 percent at the prior
examination. In addition, the bank’s Total Risk-Based Capital ratio was 10.4 percent,
slightly above the minimum requirement for maintaining a Well Capitalized position.
Such ratios were well below the bank’s peer group ratios. Although earnings were much
improved since the prior examination, they were not sufficient to significantly augment
capital.

Notably, FirsTier’s ADC loan concentration had increased to 457 percent of total capital,
presenting significant risk to the institution. Such concentrations were substantially higher
than the bank’s peer group average and much greater than the limits in the bank’s own
loan policy. According to the examination report, the loan policy provided for a range of
50-100 percent of capital for land acquisition/development loans, but the actual volume
committed was 342 percent of capital, and the funded amount was 303 percent of capital.
14
   Adversely classified assets increased from 0 at the December 2005 examination to 14 percent of Tier 1
Capital and the ALLL.
15
   At the time of the examination, $16.8 million in capital injections had been made since the bank’s
inception, with an additional $6 million planned for 2007.


                                                    17
In addition, the loan policy permitted a range of 200-300 percent of capital for ADC loans,
but commitments for such loans were 688 percent of capital. The examination report
recommended that management consider whether its loan policy or practices should be
changed, while determining more clearly the extent of such risk the Board was willing to
assume.

2008 Supervisory Activities

Examiners determined during the June 2008 CDB examination that FirsTier’s overall
condition was satisfactory. At that time, the institution had a moderate level of classified
assets16 and credit risk management practices exhibited weakness in several areas. For
example, examiners noted that the bank needed to better oversee and monitor its CRE
concentration, improve its market analysis and appraisal practices, perform stress testing
of the loan portfolio, and strengthen the loan policy and loan loss reserve methodology.

The bank continued to experience rapid growth, with total loans increasing from
$216 million at the prior examination to $516 million and ADC loans increasing from
$108 million to over $276 million. At the time of the examination, FirsTier’s ADC loan
concentration had grown to 527 percent of Tier 1 Capital, presenting significant risk to the
bank should a downturn in the real estate market occur. Much of the bank’s loan growth
was funded using Internet CDs and, beginning in 2008, using brokered deposits and FHLB
advances. Examiners determined that FirsTier’s liquidity risk management practices were
less than satisfactory.

While the bank remained Well Capitalized for purposes of PCA, the institution’s capital
ratios had declined during each of the past three examination periods and continued to trail
peer group averages. In addition, earnings were deteriorating and insufficient to provide
for capital augmentation. The examination report concluded that FirsTier’s capital levels
were marginally satisfactory given the risks associated with the bank’s rapid growth and
loan concentrations. According to the examination report, management indicated that
additional capital support was available, if needed, from the bank’s holding company and
shareholders.

Notwithstanding the examiners’ conclusion that the bank’s financial condition was
satisfactory, the composite and capital component ratings assigned during the examination
– both being “2” – did not fully reflect, on a forward-looking basis, the substantial risk
associated with the institution’s ADC loan exposure in a weakening real estate market.
Had these ratings been lowered, it is more likely that supervisory action would have been
pursued.

2009 Supervisory Activities

Examiners determined during the July 2009 FDIC examination that FirsTier’s overall
financial condition was critically deficient and assigned the bank a composite “5” rating.

16
  Adversely classified assets increased from approximately 14 percent of capital at the previous examination
to over 28 percent of capital.


                                                    18
Examiners noted that the bank pursued a strategy of rapid and high-risk CRE loan growth
in prior years supported by non-core, credit-sensitive funds, such as FHLB advances,
brokered deposits, and Internet CDs. Examiners also noted that despite evidence of a
slowing economy and soft real estate market, management continued to pursue ADC
lending throughout 2008. Following the prior examination, loans grew from $516 million
to $728 million (a 41-percent increase), with ADC loans increasing from $276 million to
over $389 million (a 41-percent increase). In addition, the bank’s reliance on brokered
deposits to fund loan growth increased from $8 million to $174 million.

Examiners concluded that in order to support the bank’s rapid growth, the Board declined
to establish reasonable concentration limits. Specifically, FirsTier’s loan policy allowed
up to 900 percent of Tier 1 Capital for ADC loans, up to 500 percent of Tier 1 Capital for
land development loans, and up to 400 percent of Tier 1 Capital for speculative
construction loans. Such limits exposed the institution to significant risk of potential
adverse market conditions.

Examiners determined that FirsTier’s business plan was of limited benefit as it was
general and not based on a formal assessment of the risks associated with the bank’s high
asset growth rate and heavy CRE concentrations. The plan also did not reflect an
assessment of the need to enhance the capital commensurate with the increased CRE
concentration risks and provided only a limited discussion of funding sources or liquidity.
Although FirsTier’s management revised its business plan in February 2009, examiners
found that it still did not address important matters, such as the need to reduce the bank’s
concentration levels, establish and maintain an appropriate level of capital, and provide for
satisfactory oversight of the loan portfolio.

Weak loan underwriting or credit administration standards for real estate development
lending compounded the problems experienced at the bank. For example, examiners
noted that the bank made development loans to borrowers without reliable secondary
sources of repayment or liquidity. In addition, as conditions in FirsTier’s lending markets
deteriorated, management relied on appraisals with unrealistic assumptions, and interest
reserves were used extensively to delay the recognition of loan problems. Further, asset
quality deteriorated substantially, with adversely classified assets increasing to
171 percent of Tier 1 Capital plus the ALLL.

2010 and 2011 Supervisory Activities

Based on the results of the July 2009 examination, the FDIC issued a C&D effective
January 22, 2010. The C&D remained in effect until the bank was closed in January 2011.
An FDIC visitation to assess FirsTier’s financial condition and management’s compliance
with the C&D was conducted on April 12, 2010. Examiners found that the overall
condition of the bank continued to be extremely poor, with operating losses depleting
capital to a critical level. Further, the bank had an extremely high volume of adversely
classified assets, which totaled 420 percent of Tier 1 Capital and the ALLL. Significant
exposure to CRE loans also created a high potential that loan losses and other real estate




                                             19
owned (OREO)17 write-downs would result in additional capital erosion in 2010.
Examiners also found that asset quality had deteriorated further since the last examination,
and liquidity continued to be a concern since the bank was subject to brokered deposit
restrictions and limited access to alternative sources of funding.

According to the September 2010 joint examination report, management was focusing on
reducing the bank’s problem loans, but the deterioration in the loan portfolio had
accelerated in the prior 12 months and was considered to be excessive. CRE and ADC
loan concentrations had resulted in an elevated risk profile that exposed the bank to the
full impact of the downturn in the real estate market. Although FirsTier’s management
injected $3 million into the bank during the examination, examiners stated that capital
continued to decline, and the bank was considered to be Critically Undercapitalized for
PCA purposes. Further, the bank continued to rely heavily on non-core funding, with the
net non-core funding dependence ratio more than double that of the bank’s peer group at
54 percent. Notably, the bank was cited for 12 apparent violations of laws and regulations
and/or contraventions of statements of policy, which included violations of appraisal
requirements and the State of Colorado’s special lending authority.

A final visitation focusing on asset quality, ALLL adequacy, and capital was conducted on
January 3, 2011. At that time, examiners determined that the bank was insolvent and
needed immediate capital support. The CDB closed FirsTier on January 28, 2011 because
the institution was insolvent and was unable to raise sufficient capital to support its
operations.

Supervisory Lessons Learned

FirsTier materially deviated from its approved business plan soon after it opened by
embarking on a rapid growth strategy centered in ADC lending. To support this growth,
the bank procured potentially volatile Internet CDs, which were not addressed in the
bank’s original business plan. FirsTier’s revised business strategy resulted in the
institution assuming significantly greater risk than was contemplated when the bank
applied for deposit insurance. In light of the prior regulatory history of the bank’s owners
and management team, such a business strategy may have warranted greater supervisory
concern and/or action. Under the FDIC’s current approach to supervision, business plan
deviations (such as those experienced at FirsTier) would be subject to prior FDIC approval
and a more in-depth analysis to assess the potential risk to the institution and the DIF. In
addition, when an institution implements a material change in its business plan without
providing prior notice or obtaining the FDIC’s approval, the assessment of civil money
penalties or other enforcement action would be considered.

Recognizing that FirsTier’s financial condition and markets were generally favorable
during earlier examinations, the FDIC could have placed greater emphasis during the
January 2007 examination on the institution establishing and maintaining prudent limits
on its growing ADC loan concentration and holding higher levels of capital. At that time,
FirsTier’s ADC loan concentration was 457 percent of total capital, and its Total Risk-

17
     OREO is property taken over by a bank through foreclosures.


                                                     20
Based Capital ratio was 10.4 percent, slightly above the minimum requirement for
maintaining a Well Capitalized position. Notwithstanding the examiners’ conclusion that
the bank’s financial condition was satisfactory during the June 2008 CDB examination,
the composite and capital component ratings assigned did not fully reflect (on a forward-
looking basis) the substantial risks associated with the bank’s exposure to ADC loans in a
declining real estate market and the institution’s weak risk management practices. Had
these ratings been lowered, it is more likely that a supervisory action would have been
pursued.

Examiners became sharply critical of the bank’s risk management practices during the
July 2009 examination and issued a C&D in January 2010. However, by that time, the
institution’s lending markets had deteriorated significantly, making remedial efforts
difficult. A more proactive supervisory approach may have influenced the bank to curb its
ADC lending, increase its capital levels, and strengthen its risk management before the
bank’s lending markets deteriorated.

The FDIC has taken a number of actions to enhance its supervision program based on the
lessons it has learned from institution failures during the financial crisis. In recognition of
the elevated risk that newly chartered institutions pose to the DIF, the FDIC extended the
de novo period from 3 to 7 years for purposes of onsite examinations, capital maintenance,
and other requirements, including that the institutions obtain prior approval from the FDIC
before making material changes in their business plans. The FDIC also has reiterated to
its supervised institutions and examiners broad supervisory expectations for managing
risks associated with CRE and ADC loan concentrations. In addition, the FDIC provided
training to its examination workforce in 2009-2010, wherein the importance of assessing
an institution’s risk management practices on a forward-looking basis was emphasized.
Further, on January 26, 2010, the FDIC issued guidance to its examiners that defines
procedures for better ensuring that examiner concerns and recommendations are
appropriately tracked and addressed.18

Implementation of PCA

Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The section
requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of section 38
is to resolve the problems of insured depository institutions at the least possible cost to the
DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines the
capital measures used in determining the supervisory actions that will be taken pursuant to
section 38 for FDIC-supervised institutions. Part 325 also establishes procedures for the
submission and review of capital restoration plans and for the issuance of directives and
orders pursuant to section 38. The FDIC is required to closely monitor the institution’s
compliance with its capital restoration plan (CRP), mandatory restrictions defined under


18
 RMS Regional Directors Memorandum entitled, Matters Requiring Board Attention (Transmittal
No. 2010-003).


                                                21
section 38(e), and discretionary safeguards imposed by the FDIC (if any) to determine if
the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to FirsTier, the FDIC properly
implemented the applicable PCA provisions of section 38.19 Notably, the FDIC formally
notified the bank when its PCA capital category fell below Adequately Capitalized,
reviewed and evaluated the bank’s CRPs, reviewed and monitored the institution’s Call
Report information, and conducted discussions with management regarding its efforts to
raise needed capital. Table 4 illustrates FirsTier’s capital levels relative to the PCA
thresholds for Well Capitalized institutions as reported in the bank’s Call Reports. A
chronological description of the changes in FirsTier’s capital categories and the FDIC’s
implementation of PCA follow the table.

Table 4: FirsTier’s Capital Levels Relative to PCA Thresholds, 2008-2010

                       Tier 1
     Period Ended      Leverage          Tier 1 Risk-      Total Risk-            PCA Capital Category
                       Capital           Based Capital     Based Capital
 Well-Capitalized       5 percent or      6 percent or      10 percent or
 Thresholds                more              more               more
 FirsTier’s Capital Levels
      12/31/08         9.19               9.40              10.40            Well Capitalized
      3/31/09          8.90               9.25              10.51            Well Capitalized
      6/30/09          7.55               8.27               9.53            Adequately Capitalized
      9/30/09          6.14               7.11               8.37            Adequately Capitalized
      12/31/09         2.85               3.72               5.02            Significantly Undercapitalized
      3/31/10          3.00               3.83               5.13            Significantly Undercapitalized
      6/30/10          3.04               4.07               5.35            Significantly Undercapitalized
      9/30/10          1.24               1.59               2.90            Critically Undercapitalized
      12/31/10        (0.30)             (0.40)            (0.40)            Critically Undercapitalized
Source: UBPRs for FirsTier.

FirsTier was considered Well Capitalized for PCA purposes until the completion of the
July 2009 examination. In a letter dated October 30, 2009, the FDIC notified FirsTier’s
Board that, based on the results of the July 2009 examination, the bank had fallen to an
Undercapitalized position as of June 30, 2009.20 The letter included a reminder regarding
the restrictions imposed on Undercapitalized institutions, including restrictions pertaining
to brokered deposits, and requested a CRP within 45 days. In a letter dated November 9,
2009, FirsTier’s Board Chairman and Chief Executive Officer advised the FDIC that the
bank’s internal computations indicated that the institution was Adequately Capitalized as
of June 30, 2009 and since that time, the bank had further strengthened its capital position.
19
   As discussed later in this section, we did note exceptions to procedures related to implementing a PCA
Supervisory Directive and reviewing a CRP.
20
   Examiners determined that the bank needed to make an additional provision of $8.5 million as of June 30,
2009 and that management had overstated capital by $10.8 million by including noncontrolling interests in
consolidated subsidiaries that provided no meaningful capital support. After making these adjustments,
FirsTier’s Total Risk-Based Capital ratio fell to 7.99 percent, rendering the institution Undercapitalized.


                                                    22
Because FirsTier was reporting an Adequately Capitalized position, it did not submit a
CRP.

In January 2010, the FDIC issued a C&D requiring FirsTier to submit a CRP within 45
days that required the bank to achieve and maintain a Tier 1 Leverage Capital ratio equal
to or greater than 10 percent of average total assets and a Total Risk-Based Capital ratio
equal to or greater than 13 percent of total risk-weighted assets. In a letter dated February
10, 2010, the FDIC notified FirsTier’s Board that the bank had fallen to an
Undercapitalized position based on its December 31, 2009 Call Report.21 The letter
requested that the bank submit a CRP by March 12, 2010. FirsTier submitted a CRP,
dated March 12, 2010. In a letter dated March 25, 2010, the FDIC notified the bank’s
Board that the CRP was unacceptable because, among other things, it did not include
specific commitments from equity investors, and key financial projections did not appear
realistic.

In a letter dated March 31, 2010, the FDIC notified FirsTier’s Board that, based on its
failure to submit an acceptable CRP, the institution was subject to applicable provisions of
section 38 related to Significantly Undercapitalized institutions. The letter included a
Notice of Intent to Issue a Supervisory Prompt Corrective Action Directive, which
contained various provisions, including requirements for the bank to submit a revised CRP
and become Adequately Capitalized within 30 days. On April 15, 2010, FirsTier’s Board
submitted a response to the Notice of Intent to Issue a Supervisory Prompt Corrective
Action Directive pursuant to section 308.201(d) of the FDIC Rules and Regulations. In
the response, the bank disputed the FDIC’s decision not to accept the CRP and provided
additional information regarding the bank’s plans to raise new capital.

After considering the assertions made in the bank’s response, the FDIC determined that
immediate prompt corrective action was needed to carry out the purposes of section 38.
Accordingly, the FDIC implemented a Prompt Corrective Action Supervisory (PCAS)
Directive effective April 21, 2010. In support of its decision to issue the PCAS Directive,
the FDIC noted the CRP was dependent upon the bank’s plans to raise $60 million
through a private placement of stock—an assumption that the FDIC deemed unreasonable
given the bank’s financial condition. Due to an oversight, the PCAS Directive stated that
the bank could appeal the directive to the FDIC. However, section 308.201 of FDIC
Rules and Regulations does not permit PCAS Directives to be appealed when an
institution has been provided prior notice of the directive and an opportunity to respond.
As a result, FirsTier expended unnecessary resources filing an appeal. The FDIC advised
FirsTier’s Board that the bank had no basis to appeal the PCAS Directive in a letter dated
August 23, 2010.

The FDIC notified FirsTier’s Board in a letter dated May 18, 2010 that the institution had
fallen to a Significantly Undercapitalized position based on the March 31, 2010 Call
Report. The letter included a reminder regarding the restrictions imposed on Significantly


21
 FirsTier subsequently amended its December 31, 2009 Call Report to reflect a Significantly
Undercapitalized position.


                                                   23
Undercapitalized institutions and requested the bank to submit a CRP by May 21, 2010.
FirsTier submitted a revised CRP on May 21, 2010. In a letter dated August 23, 2010, the
FDIC advised FirsTier’s Board that its revised CRP was unacceptable because it was not
materially different from the prior March and April 2010 submissions.22

In a letter dated October 29, 2010, the FDIC notified FirsTier’s Board that, based on an
analysis of the findings of the then ongoing September 2010 examination, the bank had
fallen to a Critically Undercapitalized position. The letter included a reminder regarding
the restrictions imposed on Critically Undercapitalized banks. The letter also stated that
the bank had not yet filed an acceptable CRP and requested that the institution submit a
revised CRP as soon as possible. On November 16, 2010, FirsTier submitted a revised
CRP. In a letter dated January 13, 2011, the FDIC notified FirsTier’s Board that the CRP
appeared unlikely to succeed in restoring the bank’s capital because it was not based on
realistic assumptions, budget projections were unreasonable, and net operating losses
threatened the viability of the bank. Moreover, the bank’s holding company had not been
successful in raising needed capital or securing an acceptable party to acquire or merge
with the bank. Further, the holding company’s guarantee of capital was contingent upon
the successful completion of a $60-$70 million private offering. As a result, the FDIC
determined that the revised CRP was not acceptable.

Although FirsTier’s management explored a number of strategic alternatives for raising
capital, such as working with private equity firms to obtain investments and applying for
funds under the Department of the Treasury’s Capital Purchase Program, these efforts
were ultimately unsuccessful. The CDB closed the institution on January 28, 2011
because the institution was insolvent and was unable to raise sufficient capital to support
its operations.

OIG Evaluation of Corporation Comments
The Director, RMS, provided a written response, dated August 19, 2011, to a draft of this
report. That response is provided in its entirety as Appendix 4 of this report. In the
response, RMS reiterated the causes of failure and the supervisory activities described in
the report. The response noted that the FDIC issued a FIL in 2008, entitled Managing
Commercial Real Estate Concentrations in a Challenging Environment, that re-
emphasized the importance of robust credit risk-management practices for institutions
with concentrated CRE exposures and set forth broad supervisory expectations.
Additionally, the response referenced a 2009 FIL, entitled The Use of Volatile or Special
Funding Sources by Financial Institutions That Are in a Weakened Condition, issued by
RMS to enhance FDIC supervision of institutions with concentrated CRE lending and
reliance on volatile, non-core funding sources. The response also mentioned the 2009
FIL, entitled Enhanced Supervisory Procedures for Newly Insured FDIC-Supervised

22
  The FDIC’s written notification to the bank regarding the acceptability of the CRP was not made within
60 calendar days as prescribed by section 325.104(c) of the FDIC Rules and Regulations. However, FirsTier
was operating under a C&D with a capital maintenance provision, and the FDIC had regular discussions
with management regarding the bank’s efforts to improve its capital position. As a result, in our view, the
delayed notification was inconsequential to the supervision or the failure of the bank.


                                                    24
Depository Institutions, issued by RMS to expand the traditional de novo period, which
requires more stringent supervision, from 3 to 7 years, and tightened oversight of de novo
business plan changes during this 7-year period.




                                            25
                                                                              Appendix 1

                   Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
by increasing the MLR threshold from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. The FDI Act requires that
the report be completed within 6 months after it becomes apparent that a material loss has
been incurred.

Our audit objectives were to (1) determine the causes of FirsTier’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act.

We conducted this performance audit from March 2011 to July 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of FirsTier’s operations from January 2004
until its failure in January 2011. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

      Analyzed examination and visitation reports prepared by the FDIC and the CDB
       from May 2004 to January 2011.

      Reviewed the following:

           o Selected examination work papers prepared by the FDIC from 2004 to
             2011.

           o Bank data contained in UBPRs and Call Reports.




                                            26
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

           o Correspondence in the Dallas and Kansas City Regional Offices and the
             Denver Field Office.

           o Various other reports prepared by the Division of Resolutions and
             Receiverships (DRR) and RMS relating to the bank’s closure. We also
             reviewed records provided by DRR that would provide insight into the
             bank’s failure.

           o Information in the FDIC’s Virtual Supervisory Information On the Net
             system.

           o Pertinent RMS policies, procedures, and guidelines, as well as applicable
             laws and regulations.

      Interviewed the following officials:

           o RMS regional officials from the Dallas and Kansas City Regional Offices.

           o An RMS examiner from the Denver Field Office.

           o CDB officials in Denver, Colorado.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with our audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in the FDIC’s systems, reports,
and examination reports, and interviews of RMS and CDB examiners to obtain an
understanding of FirsTier’s management controls pertaining to the causes of failure and
material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination and visitation reports, correspondence files,
and testimonial evidence to corroborate data obtained from the systems, which was used
to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this MLR, we did not assess the strengths and weaknesses
of RMS’s annual performance plan in meeting the requirements of the Results Act


                                              27
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

because such an assessment was not part of the audit objectives. RMS’s compliance with
the Results Act is reviewed in OIG program audits of RMS operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act and the FDIC Rules and
Regulations. The results of our tests are discussed, where appropriate, in the report.
Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions, and these reports can be
found at www.fdicig.gov. In addition, the OIG issued an audit report entitled, Follow-up
Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-010), in
December 2010. The objectives of the audit were to (1) determine the actions that the
FDIC has taken to enhance its supervision program since May 2009, including those
specifically in response to the May 2009 memorandum, and (2) identify trends and issues
that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, in May 2010, the OIG
initiated an evaluation of the role and federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, Prompt Corrective Action, and section 39,
Standards for Safety and Soundness) in the banking crisis. The OIG also began an
evaluation in July 2011 to study the characteristics and related supervisory approaches
that may have prevented FDIC-supervised institutions with significant ADC loan
concentrations from being designated as problem banks or failing during the recent
financial crisis.




                                            28
                                                                                    Appendix 2

                                  Glossary of Terms

    Term             Definition
Acquisition,     ADC loans are a component of CRE that provide funding for acquiring
Development, and and developing land for future construction, and that provide interim
Construction     financing for residential or commercial structures.
(ADC) Loans
Adversely            Assets subject to criticism and/or comment in an examination report.
Classified Assets    Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.

Affiliate            Under section 23A of the Federal Reserve Act (12 U.S.C. section 371c),
                     an affiliate generally includes, among other things, a bank subsidiary, or a
                     company that (1) controls the bank and any other company that is
                     controlled by the company that controls the bank, (2) is sponsored and
                     advised on a contractual basis by the bank, or (3) is controlled by or for
                     the benefit of shareholders who control the bank or in which a majority of
                     directors hold similar positions in the bank.
Allowance for        The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease       the book value of loans and leases to the amount that is expected to be
Losses (ALLL)        collected. It is established in recognition that some loans in the
                     institution’s overall loan and lease portfolio will not be repaid. Boards of
                     Directors are responsible for ensuring that their institutions have controls
                     in place to consistently determine the allowance in accordance with the
                     institutions’ stated policies and procedures, Generally Accepted
                     Accounting Principles, and supervisory guidance.
Bank Board           A BBR is an informal commitment adopted by a financial institution’s
Resolution (BBR)     Board of Directors (often at the request of the FDIC) directing the
                     institution’s personnel to take corrective action regarding specific noted
                     deficiencies. A BBR may also be used as a tool to strengthen and monitor
                     the institution’s progress with regard to a particular component rating or
                     activity.
Call Report          Reports of Condition and Income, often referred to as Call Reports,
                     include basic financial data for insured commercial banks in the form of a
                     balance sheet, an income statement, and supporting schedules. According
                     to the Federal Financial Institutions Examination Council’s (FFIEC)
                     instructions for preparing Call Reports, national banks, state member
                     banks, and insured nonmember banks are required to submit a Call Report
                     to the FFIEC’s Central Data Repository (an Internet-based system used
                     for data collection) as of the close of business on the last day of each
                     calendar quarter.




                                              29
                                                                                  Appendix 2
                               Glossary of Terms


Cease and Desist   A C&D is a formal enforcement action issued by a financial institution
Order (C&D)        regulator to a bank or affiliated party to stop an unsafe or unsound
                   practice or a violation of laws and regulations. A C&D may be
                   terminated when the bank’s condition has significantly improved and the
                   action is no longer needed or the bank has materially complied with its
                   terms.

Chain Banking      According to the FDIC Case Manager Procedures Manual, a chain
Organization       banking organization is a group of insured institutions that are controlled,
(CBO)              directly or indirectly, by an individual acting alone, through, or in concert
                   with any other individual(s). The individual(s) must own or control 25
                   percent or more of the institutions’ voting securities, the power to control
                   in any manner the election of a majority of the directors of the institutions,
                   or the power to exercise a controlling influence over the management or
                   policies of the institutions.
Commercial Real    CRE loans are land development and construction loans (including 1-to-4
Estate (CRE)       family residential and commercial construction loans) and other land
Loans              loans. CRE loans also include loans secured by multifamily property and
                   nonfarm nonresidential property, where the primary source of repayment
                   is derived from rental income associated with the property or the proceeds
                   of the sale, refinancing, or permanent financing of the property.
Concentration      A concentration is a significantly large volume of economically related
                   assets that an institution has advanced or committed to a certain industry,
                   person, entity, or affiliated group. These assets may, in the aggregate,
                   present a substantial risk to the safety and soundness of the institution.

De novo bank       Prior to the issuance of FIL-50-2009 on August 28, 2009, and for the
                   purposes of FDIC-supervised institutions, this term referred to an
                   institution within its first 3 years of operation. FIL-50-2009 changed the
                   de novo period for newly-chartered FDIC-supervised institutions from
                   3 years to 7 years. De novo banks are subject to additional supervisory
                   oversight and regulatory controls, including the development and
                   maintenance of a current business plan and increased examination
                   frequency.

FDIC’s             The FDIC’s supervision program promotes the safety and soundness of
Supervision        FDIC-supervised institutions, protects consumers’ rights, and promotes
Program            community investment initiatives by FDIC-supervised institutions. The
                   FDIC’s RMS (1) performs examinations of FDIC-supervised institutions
                   to assess their overall financial condition, management policies and
                   practices (including internal control systems), and compliance with
                   applicable laws and regulations and (2) issues related guidance to
                   institutions and examiners.




                                            30
                                                                                    Appendix 2
                                Glossary of Terms


Federal Home        The FHLB System provides liquidity to member institutions that hold
Loan Bank           mortgages in their portfolios and facilitates the financing of mortgages by
(FHLB)              making low-cost loans, called advances, to its members. Advances are
                    available to members with a wide variety of terms to maturity, from
                    overnight to long term, and are collateralized. Advances are designed to
                    prevent any possible loss to FHLBs, which also have a super lien (a lien
                    senior or superior to all current and future liens on a property or asset)
                    when institutions fail. To protect their position, FHLBs have a claim on
                    any of the additional eligible collateral in the failed bank. In addition, the
                    FDIC has a regulation that reaffirms FHLB priority, and FHLBs can
                    demand prepayment of advances when institutions fail.

Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                    Financial Reform Act, for the period beginning January 1, 2010 and
                    ending December 31, 2011, a material loss is defined as any estimated
                    loss in excess of $200 million.

Offsite Review      The FDIC’s Offsite Review Program is designed to identify emerging
Program             supervisory concerns and potential problems so that supervisory strategies
                    can be adjusted appropriately. Offsite reviews are performed quarterly for
                    each bank that appears on the ORL. Regional management is responsible
                    for implementing procedures to ensure that offsite review findings are
                    factored into examination schedules and other supervisory activities.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. Seq., implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action
                    or compliance with the PCA statute with respect to an institution that falls
                    within any of the three undercapitalized categories.




                                              31
                                                                              Appendix 2
                            Glossary of Terms


Tier 1 (Core)   Defined in Part 325 of the FDIC Rules and Regulations, 12 Code of
Capital         Federal Regulations, section 325.2(v), as
                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                undivided profits, disclosed capital reserves, foreign currency translation
                adjustments, less net unrealized losses on available-for-sale securities
                with readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4; and
                • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Uniform Bank    The UBPR is an individual analysis of a financial institution’s financial
Performance     data and ratios that includes extensive comparisons to peer group
Report (UBPR)   performance. The report is produced by the FFIEC for the use of banking
                supervisors, bankers, and the general public and is produced quarterly
                from data in Call Reports submitted by banks.
Uniform         Financial institution regulators and examiners use the UFIRS to evaluate a
Financial       bank’s performance in six components represented by the CAMELS
Institutions    acronym: Capital adequacy, Asset quality, Management practices,
Rating System   Earnings performance, Liquidity position, and Sensitivity to market risk.
(UFIRS)         Each component, and an overall composite score, is assigned a rating of 1
                through 5, with 1 having the least regulatory concern and 5 having the
                greatest concern.




                                         32
                                                              Appendix 3

                        Acronyms
ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CBO      Chain Banking Organization
CD       Certificate of Deposit
CDB      Colorado Division of Banking
CRE      Commercial Real Estate
CRP      Capital Restoration Plan
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
FDI      Federal Deposit Insurance
FFIEC    Federal Financial Institutions Examination Council
FFTB     Former FirsTier Bank
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
MLR      Material Loss Review
OIG      Office of Inspector General
OREO     Other Real Estate Owned
ORL      Offsite Review List
PCA      Prompt Corrective Action
PCAS     Prompt Corrective Action Supervisory
RMS      Division of Risk Management Supervision
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System
U.S.C.   United States Code




                               33
                                                                                     Appendix 4

                      Corporation Comments
    _________________________________________________________



Federal Deposit Insurance Corporation
 550 17th Street NW, Washington, D.C. 20429-9990                            Division of Risk Management Supervision

                                                                                   August 19, 2011
TO:                Mark F. Mulholland
                   Assistant Inspector General for Audits

                   /Signed/
FROM:              Sandra L. Thompson
                   Director

 SUBJECT:          Draft Audit Report Entitled, Material Loss Review of FirsTier Bank, Louisville, CO

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank Wall
Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s (FDIC) Office
of Inspector General (OIG) conducted a Material Loss Review of FirsTier Bank (FirsTier) which failed
on January 28, 2011. This memorandum is the response of the Division of Risk Management Supervision
(RMS) to the OIG’s Draft Report received on July 25, 2011.

FirsTier failed due to the Board’s and management’s ineffective oversight of the credit underwriting
practices and lending function. The risks associated with a heavy concentration of Acquisition,
Development and Construction (ADC) loans contributed to a decline in the quality of the loan portfolio.
FirsTier continued to originate ADC loans during 2008 while real estate markets were weakening.
FirsTier relied on non-core funding sources, specifically internet certificates of deposit and brokered
deposits, to support loan growth and operations. By July 2009, FirsTier’s loan portfolio had significantly
deteriorated requiring increases in the provision for loan losses that depleted earnings, eroded capital and
strained liquidity. FirsTier was unable to raise additional capital to sustain safe and sound operations.

From 2004 to 2011 the FDIC and the Colorado Division of Banking conducted six on-site risk
management examinations, three on-site visitations and offsite monitoring. As a newly chartered de novo
institution, FirsTier was subject to more frequent examinations during the first three years of operation.
FirsTier deviated from its business plan and embarked on a strategy of rapid growth and concentration in
ADC loans. Examiners identified key risks in FirsTier’s operations, brought these to the attention of the
Board and management, and made recommendations for improvement. In 2009, examiners downgraded
FirsTier and issued a Cease and Desist Order. At the January 2011 visitation, examiners determined
FirsTier was insolvent and in need of immediate capital support.

RMS recognized the threat that institutions with high risk profiles, such as FirsTier, pose to the Deposit
Insurance Fund, particularly de novo institutions during the first seven years of operation. The FDIC
issued new or enhanced guidance based on lessons learned in supervising institutions such as FirsTier
during the financial crisis. For example, the FDIC issued a Financial Institution Letter (FIL) in 2008 on
Managing Commercial Real Estate Concentrations in a Challenging Environment that re-emphasized the
importance of robust credit risk-management practices for institutions with concentrated CRE exposures
and set forth broad supervisory expectations. Additionally, RMS issued a FIL in 2009 on The Use of
Volatile or Special Funding Sources by Financial Institutions That Are in a Weakened Condition to
enhance our supervision of institutions with concentrated CRE lending and reliance on volatile non-core
funding. In addition, the FDIC issued a FIL in 2009 entitled Enhanced Supervisory Procedures for Newly
Insured FDIC-Supervised Depository Institutions that expanded the traditional de novo period, which
requires more stringent supervision, from three to seven years, and tightened oversight of de novo
business plan changes during this seven-year period.

Thank you for the opportunity to review and comment on the Report

                                                   34
